P.O. Box 123
Annapolis Junction, MD 20701-0123
301-497-7000 • 800-787-8328
towerfcu.org

Effective: 8/03/2020

IMPORTANT CREDIT CARD DISCLOSURES

Important Note: This document contains disclosures for all three of Tower Federal Credit Union's credit card products. Please
ensure that you are reviewing the terms specific to the product for which you wish to apply.
1. World Mastercard.........................................Page 2
2. Gold Mastercard................................................Page 3
3. Empower Mastercard..............................................Page 4

P.O. Box 123
Annapolis Junction, MD 20701-0123
301-497-7000 • 800-787-8328
towerfcu.org

APPLICATION AND SOLICITATION DISCLOSURE
WORLD MASTERCARD®

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the
card are accurate as of July 1, 2020. You can contact us toll free at (800) 787-8328 or the address above to inquire if any
changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR)
for Purchases

1.99% Introductory APR for 12 months as of account opening.
After that, your Standard APR will be

10.99% - 17.99%

depending on your credit history. This APR will vary with
the market based on the Prime Rate.
APR for Cash Advances
and Balance Transfers

10.99% - 17.99% depending on your credit history. This APR will vary with the market
based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire outstanding balance by the
due date each month. We will begin charging interest on cash advances and balance
transfers on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
- Annual Fee:
- Application Fee:

None
None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

None
2.00% of the amount of each cash advance (minimum: $0.75)
None

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

Up to $25.00 if your payment is late 5 days or more.
None
Up to $20.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a
late payment.
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Statement Copy Fee:
$2.00 per page up to a maximum of $5.00 per statement month.
Sales Draft Copy Fee:
$3.00
Card Replacement Fee: $5.00

9009 LASER FPDF FI1000602 10-2018

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

P.O. Box 123
Annapolis Junction, MD 20701-0123
301-497-7000 • 800-787-8328
towerfcu.org

APPLICATION AND SOLICITATION DISCLOSURE
GOLD MASTERCARD®

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of July 1, 2020. You can contact us toll free at (800) 787-8328 or the address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR) for
Purchases, Balance Transfers, and Cash
Advances

10.90% - 15.90%

Paying Interest

Your due date is at least 25 days after we mail your billing statement. We will
not charge you interest on purchases if you pay your entire new purchase
balance by the due date each month. We will begin charging interest on cash
advances and balance transfers on the date the cash advance or balance
transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

depending on your credit history.

FEES:
Fees to Open or Maintain your Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance (ATM):
- Cash Advance (Over-the-Counter):
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None

None
$0.75 per cash advance
None
1.10% of each transaction in U.S. dollars if the transaction involves a currency
conversion

Up to $20.00 if your payment is late 14 days or more
None
None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Statement Copy Fee:
$2.00 per page up to a maximum of $5.00 per statement month.
Sales Draft Copy Fee:
$3.00
Card Replacement Fee: $5.00

9009 LASER FPDF FI19184 Rev 4-2020

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

P.O. Box 123
Annapolis Junction, MD 20701-0123
301-497-7000 • 800-787-8328
towerfcu.org

APPLICATION AND SOLICITATION DISCLOSURE
EMPOWER MASTERCARD®

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of July 1, 2020. You can contact us toll free at (800) 787-8328 or the address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR) for
Purchases and Cash Advances

 % - %
depending on your credit history. This APR will vary with the market based on
the Prime Rate.

APR for Balance Transfers*

0% Introductory APR for 6 months from the date of the transfer. After that, your
Standard APR will be  % -  % depending on your credit history. This
APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after we mail your billing statement. We will
not charge you interest on purchases if you pay your entire outstanding
balance by the due date each month. We will begin charging interest on cash
advances and balance transfers on the date the cash advance or balance
transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None

2.50% of the amount of each transfer
2.50% of the amount of each cash advance (minimum: $0.75)
1.00% of each transaction in U.S. dollars if the transaction involves a currency
conversion
Up to $25.00 if your payment is late 5 days or more.
None
Up to $20.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a
late payment.
*Introductory Rate is available only for balance transfers made within 60 days of account opening. Introductory Rate
does not apply to balances transferred from other Tower Federal Credit Union credit cards or loans.
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Statement Copy Fee:
$2.00 per page up to a maximum of $5.00 per statement month.
Sales Draft Copy Fee:
$3.00
Card Replacement Fee: $5.00

9009 LASER FPDF FI1001521 Rev 2-2021

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

